 SIGAR                                   Special Inspector General for
                                          Afghanistan Reconstruction




                                                   SIGAR 14-18 Financial Audit



        USAID’s Building Education Support
        Systems for Teachers and Community
        Based Stabilization Grants Projects: Audit of
        Costs Incurred by Creative Associates
        International, Inc.




                                                    JANUARY
                                                                2014
SIGAR 14-18-FA/BESST and CBSG projects
January 7, 2014

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development
This letter transmits the results of our audit of costs incurred by Creative Associates International, Inc. (CAII)
under a U.S. Agency for International Development (USAID) contract to implement the Building Education
Support Systems for Teachers (BESST) project 1 and a cooperative agreement to implement the Community
Based Stabilization Grants (CBSG) project. 2 The audit covered the periods January 27, 2006, through August
31, 2011, for the BESST project, and March 7, 2010, through March 6, 2012, for the CBSG project. The audit
was performed by Mayer Hoffman McCann P.C. It covered $134,997,303 in total expenditures.
The purpose of the BESST project was to: (1) strengthen teaching by training Afghan teachers in 11 provinces,
and (2) strengthen institutional capacity and systems in the Ministry of Education that support high-quality
school teaching, including annual printing and distribution of textbooks. The purpose of the CBSG project was
to address community development needs in the north, west, and central regions of Afghanistan by providing
small grants for infrastructure construction and repair services to help insulate those unstable communities
from insurgent intrusion.
The specific objectives of this financial audit were to
    •    render an opinion on the fair presentation of CAII’s Fund Accountability Statement; 3
    •    determine and report on whether CAII has taken corrective action on recommendations from prior
         audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in CAII’s internal
         control over financial reporting; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of its audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Mayer
Hoffman McCann P.C.’s audit results and found them to be in accordance with generally accepted government
auditing standards.
Mayer Hoffman McCann P.C. found that the Fund Accountability Statement presented fairly, in all material
respects, revenues received and costs incurred under the awards. Mayer Hoffman McCann P.C. also identified
two recommendations from a prior audit of BESST where either adequate corrective action had been taken or
where the current audit did not find similar problems. In addition, Mayer Hoffman McCann P.C. reported one


1 The project was formerly called the Basic Education Program.
2 USAID contract number for the BESST project is 306-M-00-06-00508-00; USAID agreement number for the CBSG project
is 306-A-00-10-00513-00.
3 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs

incurred, and any remaining balance for a given award during a given period.
internal control deficiency (in the BESST project) and three instances of noncompliance (two in the BESST
project and one in the CBSG project), which prompted the auditors to question a total of $344,479 in costs. 4
These questioned costs included $342,846 in ineligible costs and $1,633 in unsupported costs. 5 See table 1.
Table 1 - Summary of Questioned Costs
                                                Questioned Costs
                    Category                                                    Ineligible                Unsupported
                                                      Total

    Labor (BESST)                                           $141,523                    $140,129                      $1,394

    Indirect Costs (BESST)                                  $156,506                    $156,267                        $239

    Subcontract G&A (BESST)                                     $37,806                  $37,806

    Other Direct Costs (CBSG)                                    $7,322                   $7,322

    G&A (CBSG)                                                   $1,322                   $1,322

    Totals                                                  $344,479                    $342,846                      $1,633

Given the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan:
       1. Determine the allowability of and recover, as appropriate, $344,479 in questioned costs ($342,846
          ineligible and $1,633 unsupported) identified in the report.

       2. Advise CAII to address the one internal control findings identified in the report.
       3. Advise CAII to address the three compliance findings identified in the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction


(F015)




4 Auditors questioned $335,835 under the BESST project and $8,644 under the CBSG project.
5 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion
from the Fund Accountability Statement and review by USAID to make a final determination regarding allowability.
Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine
the propriety of costs was not made available.




                                                            2
     CREATIVE ASSOCIATES INTERNATIONAL, INC.

            Financial Audit of Costs Incurred under
            Task Order No. 306-M-00-06-00508-00
For the Period January 27, 2006 through August 31, 2011; and
      Cooperative Agreement No. 306-A-00-10-00513-00
     For the Period March 7, 2010 through March 6, 2012
                     CREATIVE ASSOCIATES INTERNATIONAL, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-06-00508-00
                 For the Period January 27, 2006 through August 31, 2011; and
                       Cooperative Agreement No. 306-A-00-10-00513-00
                    For the Period March 7, 2010 through March 6, 2012


                                      Table of Contents


                                                                                Page
Summary:

 Background                                                                       1
 Objectives, Scope and Methodology                                                1
 Summary of Results                                                               4
 Summary of Creative’s Response to Findings                                       8
 Review of Prior Findings and Recommendations                                     8

Independent Auditor’s Report on Fund Accountability Statement                    10

Fund Accountability Statement                                                    12

Notes to Fund Accountability Statement                                           13

Independent Auditor’s Report on Internal Control                                 17

Independent Auditor’s Report on Compliance                                       19

Findings and Responses                                                           20

Appendix A: CAII’s Response to Findings                                          30
                          CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                  Financial Audit of Costs Incurred under
                                  Task Order No. 306-M-00-06-00508-00
                      For the Period January 27, 2006 through August 31, 2011; and
                            Cooperative Agreement No. 306-A-00-10-00513-00
                         For the Period March 7, 2010 through March 6, 2012


SUMMARY

Background

The Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted with
Mayer Hoffman McCann P.C. (MHM) to perform a Financial Audit of Costs Incurred under Task Order
No. 306-M-00-06-00508-00, Building Education Support Systems for Teachers (BESST) (Task Order),
and Cooperative Agreement No. 306-A-00-10-00513-00, Community Based Stabilization Grants
(CBSG) (Agreement), between Creative Associates International, Inc. (CAII) and the United States
Agency for International Development (USAID) for the period January 27, 2006 to August 31, 2011, and
March 7, 2010 to March 6, 2012, respectively.

USAID signed a $73 million 6-year Task Order with CAII in January 2006 to provide support for the
BESST Program in Afghanistan. More specifically, the Task Order was to strengthen teaching by all
primary school teachers, strengthen and institutionalize capacity and systems in the Afghan Ministry of
Education, and support the annual printing and distribution of textbooks. The Task Order was modified
21 times, resulting in an extension of the end date to August 31, 2011, and an increase in the total
ceiling price to $100 million.

USAID also signed a $43 million 2-year Cooperative Agreement with CAII in March 2010 to provide
support for the CBSG program in Afghanistan. More specifically, the program was to target unstable
communities in the north, west, and central regions of Afghanistan with grants to address community
development needs to help insulate those communities from insurgent intrusion. The Agreement was
modified 8 times to, among other things, revise the program, decrease the total estimated cost, and
realign the budget. As a result of the modifications, the total estimated costs of the agreement
decreased to $36 million. The CBSG period of performance ended in March 6, 2012.


Objectives, Scope and Methodology

Objectives

The objectives of the audit include the following:

   •   The Fund Accountability Statement (FAS) – Express an opinion on whether the FAS presents
       fairly, in all material respects, revenues received, costs incurred, items directly procured by the
       U.S. Government and fund balance for the period audited in conformity with the terms of the
       award and generally accepted accounting principles or other comprehensive basis of
       accounting.

   •   Internal Controls – Evaluate and obtain a sufficient understanding of CAII’s internal controls
       related to the awards; assess control risk; and identify and report on significant deficiencies
       including material internal control weaknesses.



                                                     1
                         CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                  Financial Audit of Costs Incurred under
                                  Task Order No. 306-M-00-06-00508-00
                      For the Period January 27, 2006 through August 31, 2011; and
                            Cooperative Agreement No. 306-A-00-10-00513-00
                         For the Period March 7, 2010 through March 6, 2012


SUMMARY

   •    Compliance – Perform tests to determine whether CAII complied, in all material respects, with
        the award requirements and applicable laws and regulations; and identify and report on
        instances of material non-compliance with terms of the award and applicable laws and
        regulations, including potential fraud or abuse that may have occurred.

   •    Corrective Action on Prior Audit Recommendations – Determine and report on whether CAII has
        taken adequate corrective action on prior external audit report recommendations or other
        external assessment recommendations that could have a material effect on the fund
        accountability statement.


Scope

The scope of this audit included direct operating costs incurred during the period January 27, 2006
through August 31, 2011 under the Task Order, and March 7, 2010 through March 6, 2012 under the
Agreement between CAII and USAID. Our testing of indirect costs was limited to determining that the
indirect costs were calculated using the correct negotiated indirect cost rate for the given year, as
approved by USAID.


Methodology

In order to accomplish the objectives of this audit, we designed our audit procedures to include the
following:

Entrance Conference

An entrance conference was held at Creative Associates International, Inc.’s facilities, located on 5301
Wisconsin Ave N.W., Washington, D.C., on June 24, 2013, with representatives of MHM, CAII and
SIGAR in attendance or through a conference call.

Planning

During our planning phase, we performed the following:

   •    Obtained an understanding of CAII;
   •    Reviewed awards and modifications to CAII;
   •    Performed a financial reconciliation; and
   •    Selected samples based on our approved sampling techniques.
           o For BESST, selected statistical samples for Other Direct Costs, Subcontractors and
               Grants. A judgmental sample was selected for Total Labor.



                                                   2
                         CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                  Financial Audit of Costs Incurred under
                                  Task Order No. 306-M-00-06-00508-00
                      For the Period January 27, 2006 through August 31, 2011; and
                            Cooperative Agreement No. 306-A-00-10-00513-00
                         For the Period March 7, 2010 through March 6, 2012


SUMMARY

           o   For CBSG, selected statistical samples for Other Direct Costs (ODC) and Grants. A
               judgmental sample was selected for Direct Labor, Travel & Per Diem, Allowances, Sub-
               contractors and Procurement.

Internal Control Related to the FAS

We reviewed CAII’s internal controls related to the FAS. This review was accomplished through
interviews with management and key personnel, review of policies and procedures, identifying key
controls within significant transaction cycles, and testing those key controls.

Compliance with the Task Order and Agreement Requirements and Applicable Laws and Regulations

We reviewed the Task Order, Agreement, modifications and any subawards and documented all
compliance requirements that could have a direct and material effect on the FAS. We assessed
inherent and control risk as to whether material noncompliance could occur. Based upon our risk
assessment, we designed procedures to test a sample of transactions to ensure compliance.

Corrective Action on Prior Audit Recommendations

We requested all prior audit reports and recommendations in order to evaluate the adequacy of
corrective actions of the prior audit recommendations by reviewing evidence of any corrective actions
taken. See the Review of Prior Audit Recommendations subsection of this Summary for the adequacy
of corrective actions of applicable prior findings.

Sampling

Our sampling techniques included using the detailed accounting records, and based upon the risk
assessed, we performed data mining to assess individual expenditure accounts and transactions that
are considered to be high or medium risk for inclusion in our test of transactions. If the population of a
given cost category tended to be large in the number of transactions and more homogeneous in nature,
we considered selecting a statistical sample of the costs. If a statistical sample was selected, the
sample size was based upon a 95% confidence level with 5% maximum tolerable error rate. All other
cost categories and/or accounts for which it was not be appropriate to select a statistical sample were
selected on a judgmental basis.

Fund Accountability Statement

In reviewing the FAS, we performed the following:

   •   Reconciled the costs on the FAS to the Task Order, Agreement and general ledger;
   •   Traced receipt of funds to the accounting records; and




                                                    3
                         CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                 Financial Audit of Costs Incurred under
                                 Task Order No. 306-M-00-06-00508-00
                     For the Period January 27, 2006 through August 31, 2011; and
                           Cooperative Agreement No. 306-A-00-10-00513-00
                        For the Period March 7, 2010 through March 6, 2012


SUMMARY

   •   Sampled and tested the costs incurred to ensure the costs were allowable, allocable to the Task
       Order or Agreement, and reasonable.

Exit Conference

An exit conference was held on September 26, 2013. Participants included MHM, CAII, SIGAR and
USAID. During the exit conference, we discussed the preliminary results of the audit and established a
timeline for providing any final documentation for consideration and reporting, and established the next
steps to be performed during the reporting phase of the audit.


Summary of Results

Our audit of the costs incurred by CAII under the Task Order and Agreement with USAID identified the
following matters:


Auditor’s Opinion on FAS

We issued an unqualified opinion on the fairness of the presentation of the FAS. Although we identified
$335,835 of questioned costs in the BESST Program and $8,644 in the CBSG Program, these totals do
not represent a material misstatement of the FAS and therefore did not affect the opinion. The ultimate
determination of whether the identified questioned costs are to be accepted or disallowed rests with
USAID.


Questioned Costs

There are two categories of questioned costs, ineligible and unsupported. Ineligible costs are those
costs that are deemed to not be allowable in accordance with the terms of the Task Order or
Agreement, and applicable laws and regulations including Federal Acquisitions Regulations (FAR) and
USAID Acquisition Regulations (AIDAR). Unsupported costs are those costs for which no or
inadequate supporting documentation was provided for our review. A summary of questioned costs is
as follows.

Ineligible Costs

BESST:

   •   A total of $334,202 was charged in excess of the approved budgeted amounts for certain line
       items. Direct Labor totaling $140,129 was charged in excess of the approved budget amount,
       which caused an additional $156,267 to be charged to the program as associated indirect costs.


                                                   4
                          CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                  Financial Audit of Costs Incurred under
                                  Task Order No. 306-M-00-06-00508-00
                      For the Period January 27, 2006 through August 31, 2011; and
                            Cooperative Agreement No. 306-A-00-10-00513-00
                         For the Period March 7, 2010 through March 6, 2012


SUMMARY

        In addition, General and Administrative (G&A) costs totaling $37,806 were charged in excess of
        the approved budget in the G&A Aguirre/EDC (G&A other than labor) line item. Aguirre and
        EDC were CAII’s subcontractors. See Finding 2013-1 in the Findings and Responses section of
        this report.

CBSG:

   •    A total of $8,644 was charged to the program without the proper approval from USAID.
        Transportation allowances totaling $3,202 were charged to the program without these costs
        being approved in the budget. Also, $4,120 in lunch and food expenses was charged to the
        program without the proper approval in the budget. As a result, $1,322 was charged to the
        program in associated indirect costs. See Finding 2013-3 in the Findings and Responses
        section of this report.

Unsupported Costs

BESST:

   •    Hours reported by one of CAII’s consultants for May 2010 were not adequately supported by
        timesheets. The amount of labor charged for this consultant was $1,394. This resulted in G&A
        questioned costs of $239. Therefore, a total of $1,633 was questioned. See Finding 2013-2 in
        the Findings and Responses section of this report.

Total questioned costs as a result of our audit are as follows:

       BESST:
        Ineligible costs                                   $334,202
        Unsupported costs                                     1,633

         Subtotal questioned costs – BESST                  335,835

       CBSG:
        Ineligible costs                                          8,644
        Unsupported costs                                             -

         Subtotal questioned costs – CBSG                         8,644

       Total questioned costs                              $344,479




                                                     5
                           CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                  Financial Audit of Costs Incurred under
                                  Task Order No. 306-M-00-06-00508-00
                      For the Period January 27, 2006 through August 31, 2011; and
                            Cooperative Agreement No. 306-A-00-10-00513-00
                         For the Period March 7, 2010 through March 6, 2012


SUMMARY


Internal Control Findings

Internal control findings are classified into three categories, deficiency, significant deficiency, and
material weakness. A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their assigned functions,
to prevent, or detect and correct, misstatements on a timely basis. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or a combination of deficiencies, in internal control, such that there is a
reasonable possibility that a material misstatement of the FAS will not be prevented, or detected and
corrected on a timely basis. A summary of the internal control findings noted as a result of the audit are
as follows:

Material Weaknesses

No material weaknesses were reported.

Significant Deficiencies

The following significant deficiency was reported:

     Finding                                                                         Auditee’s
     Number               Internal Control Finding – Significant Deficiency         Concurrence
     2013-1      A total of $334,202 was charged in excess of the approved           Disagree
                 budgeted amounts for certain line items. Direct Labor totaling
                 $140,129 was charged in excess of the approved budget
                 amount, which caused an additional $156,267 to be charged
                 to the program as associated indirect costs. In addition, G&A
                 costs totaling $37,806 were charged in excess of the
                 approved budget in the G&A Aguirre/EDC (G&A other than
                 labor) line item.


The complete management response from CAII to the internal control finding can be found in Appendix
A to this report.

Deficiencies

No deficiencies were reported.




                                                     6
                        CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                 Financial Audit of Costs Incurred under
                                 Task Order No. 306-M-00-06-00508-00
                     For the Period January 27, 2006 through August 31, 2011; and
                           Cooperative Agreement No. 306-A-00-10-00513-00
                        For the Period March 7, 2010 through March 6, 2012


SUMMARY


Compliance Findings

As part of obtaining reasonable assurance about whether the FAS is free from material misstatement,
we performed tests of its compliance with certain provisions of the Agreement and the Task Order, and
other laws and regulations, noncompliance with which could have a direct and material effect on the
determination of FAS. The results of our tests disclosed the following instances of non-compliance.

     Finding                                                                      Auditee’s
     Number                          Compliance Finding                          Concurrence

     2013-1     A total of $334,202 was charged in excess of the approved         Disagree
                budgeted amounts for certain line items. Direct Labor totaling
                $140,129 was charged in excess of the approved budget
                amount, which caused an additional $156,267 to be charged
                to the program as associated indirect costs. In addition, G&A
                costs totaling $37,806 were charged in excess of the
                approved budget in the G&A Aguirre/EDC (G&A other than
                labor) line item.

     2013-2     Hours reported by one of CAII’s consultants for May 2010            Agree
                were not supported by timesheets. The amount of labor
                charged for this consultant was $1,394. This caused G&A
                costs of $239 to be charged to the Task Order as associated
                indirect costs.

     2013-3     A total of $8,644 was charged to the program without the          Disagree
                proper approval from USAID. Transportation allowances
                totaling $3,202 were charged to the program without these
                costs being approved in the budget. Also, $4,120 in lunch
                and food expenses was charged to the program without the
                proper approval in the budget. As a result, $1,322 was
                charged to the program in associated indirect costs.


The complete management response from CAII to the compliance findings can be found in Appendix A
to this report.




                                                  7
                        CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                 Financial Audit of Costs Incurred under
                                 Task Order No. 306-M-00-06-00508-00
                     For the Period January 27, 2006 through August 31, 2011; and
                           Cooperative Agreement No. 306-A-00-10-00513-00
                        For the Period March 7, 2010 through March 6, 2012


SUMMARY

Summary of CAII’s Response to Findings

The following represents a summary of the responses provided by CAII to the findings identified in this
report. Management responses are included after each finding and the complete responses received
can be found in Appendix A to this report.

   •   Finding 2013-1: CAII disagrees with the finding and recommendation. CAII acknowledged that
       during the last budget realignment as approved in Modification #21, dated July 13, 2011, they
       indivertibly reduced the amount of the anticipated cost of G&A on Aguirre and EDC other costs.
       CAII indicated that the ceiling price of this task order was not exceeded and therefore all
       reasonable costs should be allowable and paid.

   •   Finding 2013-2: CAII agrees that the timesheets are indeed missing and will pay back USAID
       the full questioned amount of $1,633.

   •   Finding 2013-3: CAII disagrees with the finding and recommendation. CAII maintains that the
       transportation and meal costs are allowable and reasonable costs for the performance of this
       CBSG project though not included in the approved budget.

Review of Prior Findings and Recommendations

We reviewed the adequacy of the corrective actions taken to address findings and recommendations
from previous engagements that could have a material effect on the FAS. There was one prior audit
conducted by the USAID Office of Inspector General (OIG) on the BESST Program that contained three
findings and four recommendations. One of these findings was taken into consideration because of the
impact it had on the scope of the engagement. Adequate corrective action has not been taken. A
summary of this finding is as follows:

   •   High Value Subcontract Modifications were not Approved by the Mission

       The contract between the Mission and CAII, and subsequent instructions from the Mission
       contracting officer, required that CAII obtain the contracting officer's written approval with
       consent of the technical representative, prior to the award of subcontracts and subsequent
       modifications. CAII did not seek or obtain required approvals from the Mission's contracting
       officer for all of its project subcontract modifications. Many of these modifications resulted in
       substantial increases in subcontractor funding levels, and one modification terminated the
       project’s monitoring and evaluation subcontractor without Mission approval. According to CAII,
       they believed they did not need to obtain approval to modify the subcontracts, since they had
       received earlier approval to make the original subcontract awards. Since the Mission was
       unaware of some of CAII’s subcontract modifications the Mission had little if any assurance of
       the acceptability of the terms and costs associated with these modifications. Of particular note,



                                                   8
                       CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                Financial Audit of Costs Incurred under
                                Task Order No. 306-M-00-06-00508-00
                    For the Period January 27, 2006 through August 31, 2011; and
                          Cooperative Agreement No. 306-A-00-10-00513-00
                       For the Period March 7, 2010 through March 6, 2012


SUMMARY

      in the case of the subcontractor termination, the Mission may even be liable for contract
      termination costs.

  •   Recommendation

      USAID OIG recommended that USAID/Afghanistan require CAII, to submit all pertinent
      information related to all BESST subcontract modifications for which the Mission has not been
      notified. After receipt of the pertinent information from CAII, the Mission should determine and
      document the acceptability of the subcontract modifications.

      USAID OIG also recommended that USAID/Afghanistan require a closeout audit of the
      subcontract between CAII and JBS International, Inc.-Aguirre Division related to the BESST
      project and implement all corrective actions detailed in the closeout audit report.

  •   Adequacy of Corrective Actions

      CAII provided the Mission with all subcontract modifications for review and written approval of
      the contacting officer. As it relates to the second recommendation, CAII’s management stated
      they were not informed of any required audit on their part and were not provided with the audit
      report. CAII obtained the USAID OIG Audit Report No. 5-306-10-006-P, while doing a search
      on the web. The closeout audit has not been performed. We took this fact into consideration
      while selecting the samples tested as part of our audit. There were no findings related to JBS
      International, Inc-Aguirre Division during the fieldwork performed under this engagement.




                                                 9
   ...... JMayer Hoffman Mccann P.C.
              An Independent CPA Firm
              3 Bethesda Metro Center. Suite 600
              Bethesda. MD 20814-6332
              301-951-3636
              301-951-0425
              www.mhm-pc.com




Board of Directors
Creative Associates International, Inc.
5301 Wisconsin Ave N.W., Suite 700
Washington, D.C. 20015



                            INDEPENDENT AUDITOR'S REPORT
                          ON FUND ACCOUNTABILITY STATEMENT


We have audited the Fund Accountability Statement of Creative Associates, Inc. (CAii) for Task
Order No. 306-M-00-06-00508-00 (Task Order) and Cooperative Agreement No. 306-A-00-10-
00513-00 (Agreement) with the United States Agency for International Development (USAID) for
the periods January 27, 2006 through August 31 , 2011 and March 7, 2010 through March 6,
2012, respectively.   The Fund Accountability Statement is the responsibility of CAll's
management. Our responsibility is to express an opinion on the Fund Accountability Statement
based on our audit.

We conducted our audit of the Fund Accountability Statement in accordance with Government
Aud;t;ng Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
Fund Accountability Statement is free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the Fund Accountability
Statement. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall Fund Accountability
Statement presentation. We believe that our audit provides a reasonable basis for our opinion.

In our opinion , the Fund Accountability Statement referred to above present fairly, in all material
respects, program revenues, costs incurred and reimbursed, and items and technical assistance
directly procured by the United States Agency for International Development for the indicated
period in accordance with the terms of the Task Order and Agreement, and in conformity with
the basis of accounting described in Note 2.

In accordance with Government Auditing Standards, we have also issued our reports dated
December 17, 2013 on our consideration of CAll's internal control over financial reporting and
our tests of its compliance with certain provisions of laws and regulations. Those reports are an
integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this lndependent's Auditor's Report in considering the results
of our audit.

This report is intended for the information of Creative Associates, Inc., the United States Agency
for International Development, and the Special Inspector General for Afghan istan


                                                   10
                     CREATIVE ASSOCIATES INTERNATIONAL, INC.

                             Financial Audit of Costs Incurred under
                             Task Order No. 306-M-00-06-00508-00
                 For the Period January 27, 2006 through August 31, 2011; and
                       Cooperative Agreement No. 306-A-00-10-00513-00
                    For the Period March 7, 2010 through March 6, 2012

                                Fund Accountability Statement

Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Bethesda, Maryland
December 17, 2013




                                             11
                           CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                   Financial Audit of Costs Incurred under
                                   Task Order No. 306-M-00-06-00508-00
                       For the Period January 27, 2006 through August 31, 2011; and
                             Cooperative Agreement No. 306-A-00-10-00513-00
                          For the Period March 7, 2010 through March 6, 2012

                                    Fund Accountability Statement


                                                                          Questioned Costs
                                   Budget           Actual       Ineligible Unsupported    Total        Notes
Revenues:
  BESST - Task Order No.
  306-M-00-06-00508-00         $   100,000,000 $ 99,768,086 $           -    $        -   $        -     (3)
  CBSG - Cooperative
  Agreement No. 306-A-00-
  10-00513-00                  $    36,000,000 $ 35,229,217 $           -    $        -   $        -     (3)

Total revenues                     136,000,000     134,997,303          -             -            -

Costs incurred:
     BESST
  Total labor                       13,595,584      13,735,713    140,129         1,394       141,523 (4)
  G&A, fringe and overhead
  on off-schedule labor              3,680,881       3,505,530    156,267          239        156,506 (6)
  Other direct costs                12,926,967      12,790,241         -            -              -
  G&A CAII                                                             -            -              -
  G&A Aguirre/EDC (G&A on
  other than labor)                                                 37,806            -        37,806 (6)
  Subcontract                       50,601,443      50,577,025          -             -            -
  Grants                             3,500,000       3,471,340          -             -            -
  Fixed fee                          2,409,963       2,409,963          -             -            -
     CBSG
  Direct labor                       2,377,392       2,310,843          -             -            -
  Fringe                               712,658         696,507          -             -            -
  Overhead                             976,987         956,024          -             -            -
  Travel and per diem                  234,515         228,094          -             -            -
  Allowances                           427,382         448,848          -             -            -
  Subcontractors                     6,771,573       6,658,483          -             -            -
  Activities                        19,100,004      18,780,962          -             -            -
  Procurement                          670,011         671,830          -             -            -
  Other direct costs                 2,165,517       1,982,769       7,322            -         7,322 (5)
  G&A                                                                1,322            -         1,322 (6)

Total costs incurred               136,000,000     134,997,303    342,846         1,633       344,479

Outstanding fund balance       $             - $             - $(342,846) $      (1,633) $(344,479) (7)




                                                   12
                        CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                Financial Audit of Costs Incurred under
                                Task Order No. 306-M-00-06-00508-00
                    For the Period January 27, 2006 through August 31, 2011; and
                          Cooperative Agreement No. 306-A-00-10-00513-00
                       For the Period March 7, 2010 through March 6, 2012

                              Notes to Fund Accountability Statement

(1)   Status and Operation

      Creative Associates International, Inc. (CAII) is a private firm providing professional and
      technical services. CAII is the second largest company owned by women that works with the
      U.S. Government. Overseas, CAII works with underserved communities by sharing their
      expertise and experience in education, governance, stabilization, and transitions from conflict to
      peace.

      USAID signed a $73 million 6-year Task Order with CAII in January 2006 to provide support for
      the BESST Program in Afghanistan. More specifically, the Task Order was to strengthen
      teaching by all primary school teachers, strengthen and institutionalize capacity and systems in
      the Afghan Ministry of Education, and support the annual printing and distribution of textbooks.
      The Task Order was modified 21 times, resulting in an extension of the end date to August 31,
      2011, and an increase in the total ceiling price to $100 million.

      USAID also signed a $43 million 2-year Cooperative Agreement with CAII in March 2010 to
      provide support for the CBSG program in Afghanistan. More specifically, the program was to
      target unstable communities in the north, west, and central regions of Afghanistan with grants to
      address community development needs to help insulate those communities from insurgent
      intrusion. The Agreement was modified 8 times to, among other things, revise the program,
      decrease the total estimated cost, and realign the budget. As a result of the modifications, the
      total estimated costs of the agreement decreased to $36 million.


(2)   Summary of Significant Accounting Policies

      (a)    Basis of Accounting

             The Fund Accountability Statement reflects the revenues and expenses incurred under
             the awards. It has been prepared on the accrual basis of accounting. Under the accrual
             basis of accounting, revenues are recognized when earned and expenses are
             recognized when incurred.

      (b)    Foreign Currency Conversion Method

             CAII converts its expenses that were paid in local currency (Afghanis) into the reporting
             currency (U.S. Dollar) by applying the bank exchange rates used to transfer funds
             between U.S. dollar account and Afghanis account at the time of the transfer.




                                                  13
                       CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                Financial Audit of Costs Incurred under
                                Task Order No. 306-M-00-06-00508-00
                    For the Period January 27, 2006 through August 31, 2011; and
                          Cooperative Agreement No. 306-A-00-10-00513-00
                       For the Period March 7, 2010 through March 6, 2012

                              Notes to Fund Accountability Statement

                                            (Continued)

(2)   Summary of Significant Accounting Policies (Continued)

      (c)    Questioned Costs

             There are two categories of questioned costs, ineligible and unsupported. Ineligible
             costs are those costs that are deemed to not be allowable in accordance with the terms
             of the Agreement or applicable laws and regulations. Unsupported costs are those costs
             for which no or inadequate supporting documentation was provided for our review.


(3)   Revenues

      As of August 31, 2011, CAII had received $99,768,086 in payments from USAID under the Task
      Order. In addition, as of March 6, 2012, CAII had received $35,229,217 in payments from
      USAID under the Agreement.


(4)   Total Labor

      CAII reported personnel costs in the amount of $13,735,713 for the period January 27, 2006
      through August 31, 2011. Direct Labor totaling $140,129 was charged to the Task Order in
      excess of the approved budget for that line item without any written approval from USAID. In
      addition, hours reported by one of CAII’s consultants for May 2010 were not adequately
      supported by timesheets. The amount of labor charged for this consultant was $1,394. Total
      questioned direct labor for BESST is $141,523. See Note 6 for details related to the associated
      indirect costs.


(5)   Other Direct Costs – CBSG

      CAII reported other direct costs in the amount of $1,982,769 for the period March 7, 2010
      through March 6, 2012. Transportation costs totaling $3,202 were charged to the Agreement
      without the proper approval from USAID. At the same time food costs totaling $4,120 were
      charged to the Agreement without the proper approval from USAID. Total questioned Other
      Direct Costs for CBSG are $7,322. See Note 6 for details related to the associated indirect
      costs.




                                                14
                         CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                 Financial Audit of Costs Incurred under
                                 Task Order No. 306-M-00-06-00508-00
                     For the Period January 27, 2006 through August 31, 2011 ; and
                           Cooperative Agreement No. 306-A-00-10-00513-00
                        For the Period March 7, 2010 through March 6, 2012

                                  Notes to Fund Accountability Statement

                                               (Continued)

(6)   Indirect Costs

      Under the BESST Task Order, CAii reported G&A, fringe and overhead on off-schedule labor of
      $3,505,530 for the period January 27, 2006 through August 31 , 2011. This Task Order was
      awarded under the Mission Oriented Business Integrated Services (MOBIS) schedule that CAii
      has with the General Services Administration (GSA). Off-schedule labor refers to labor charges
      that were not included in the MOBIS contract rate schedule. Also under the CBSG Agreement,
      CAii reported G&A costs in the amount of $2,494,857 for the period March 7, 201 O through
      March 6, 2012. The negotiated indirect cost rates were as follows:


                            Effective Period                         Indirect Cost Rates
          ~             From          Through            Fringe Benefits (a)    Overhead (b)     G&A (c)
      Final            10-01-03       09-30-04
      f rovisional     10-01-04       09-30-05
      Provisional      10-01-05       09-30-06
      Provisional      10-01-06       09-30-07
      Provisional      10-01-07       09-30-08

                                                         Fringe Benefits
         ~              From           Through        CCN d USN/TCN e                            G&A c
      Provisional      10-01-08       09-30-09
      Provisional      10-01-09       09-30-1 0
      Provisional      10-10-10     Until Amended

      The basis of allocation for the indirect costs is as follows:

              (a) Total labor dollars
              (b) Total direct labor dollars and Bid & Proposals (B&P) labor dollars
              (c) Total costs excluding G&A and pass-through other direct expenses
              (d) Total cooperating country nationals (CCN ) labor dollars
              (e) Total United States nationals (USN) and third country nationals (TCN ) labor dollars

      Since costs are questioned, an adjustment for associated indirect costs is required. We used
      the negotiated provisional indirect cost rates in calculating the allowable indirect costs. The
      appropriate rate for each year was applied to the individual costs questioned. As described in
      the previous paragraph, each type of indirect costs, i.e., overhead, material handling, G&A, etc.
      has a different basis of allocation. As a result, each type of indirect cost might not be applicable
      to all cost categories. A summary of associated questioned indirect costs by cost category is as




                                                    15
                       CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                Financial Audit of Costs Incurred under
                                Task Order No. 306-M-00-06-00508-00
                    For the Period January 27, 2006 through August 31, 2011; and
                          Cooperative Agreement No. 306-A-00-10-00513-00
                       For the Period March 7, 2010 through March 6, 2012

                               Notes to Fund Accountability Statement

                                              (Continued)

(6)   Indirect Costs (Continued)

      follows. See Finding 2013-1, 2013-2 and 2013-3 in the Findings and Responses section of this
      report.

                                                                                              Total
                                                   Associated Indirect Costs              Questioned
        BESST – Cost         Questioned       Fringe       Overhead          G&A         Indirect Costs
          Category             Cost

       Direct Labor          $141,253         $52,745          $58,181       $45,580       $156,506
       G&A Aguirre/EDC         37,806               -                -        37,806         37,806

          Total              $179,059         $52,745          $58,181       $83,386       $194,312

                                                       Associated Indirect
                                   Questioned                Costs            Total Questioned Indirect
       CBSG – Cost Category          Cost                    G&A                       Costs

        Other direct costs           $7,322                  $1,322                    $1,322

           Total                     $7,322                  $1,322                    $1,322


(7)   Outstanding Fund Balance

      There was no outstanding fund balance as of August 31, 2011 and March 6, 2012 under the
      Task Order and Agreement, respectively.




                                                  16
   ...... JMayer Hoffman Mccann P.C.
               An Independent CPA Firm
               3 Bethesda Metro Center. Suite 600
               Bethesda. MD 20814-6332
               301-951-3636
               301-951-0425
               www.mhm-pc.com



Board of Directors
Creative Associates International, Inc.
5301 Wisconsin Ave N.W., Suite 700
Washington, D.C. 20015



          REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING
         BASED ON AN AUDIT OF THE FUND ACCOUNTABILITY STATEMENT
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS


We have aud ited the Fund Accountability Statement of Creative Associates International, Inc.
(CAii ) representing revenues received and costs incurred under Task Order No. 306-M-00-06-
00508-00, and Cooperative Agreement No. 306-A-00-10-00513-00 with the United States
Agency for International Development for the period January 27, 2006 to August 31 , 2011, and
March 7, 2010 to March 6, 2012, respectively, and have issued our report thereon , dated
December 17, 2013. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America and the standards applicable to financial aud its
contained in Government Auditing Standards, issued by the Comptroller General of the United
States.

Management of CAii is responsible for establishing and maintaining effective internal control
over financial reporting. In planning and performing our audit, we considered CAll's internal
control over financial reporting as a basis for designing our auditing procedures for the purpose
of expressing our opinion on the Fund Accountability Statement, but not for the purpose of
expressing an opinion on the effectiveness of CAll's internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of CAll's internal control over
financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity's financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies
in internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. We did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined previously. However, we
identified one deficiency in internal control over financial reporting, described in the
accompanying Findings and Responses as finding 2013-1 , that we consider to be a significant


                                                    17
Board of Directors
Creative Associates International, Inc.
5301 Wisconsin Ave N.W., Suite 700
Washington, D.C. 20015

deficiency in internal control over financial reporting. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.

CAII’s response to the finding identified in our audit is described in the accompanying Findings
and Responses, and included verbatim in Appendix A. We did not audit CAII’s response and,
accordingly, we express no opinion on it.

This report is intended for the information of Creative Associates International, Inc., the United
States Agency for International Development, and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Bethesda, Maryland
December 17, 2013




                                                  18
   ...... JMayer Hoffman Mccann P.C.
              An Independent CPA Firm
              3 Bethesda Metro Center. Suite 600
              Bethesda. MD 20814-6332
              301-951-3636
              301-951-0425
              www.mhm-pc.com



Board of Directors
Creative Associates International, Inc.
5301 W isconsin Ave NW, Suite 700
Washington, DC 20015



                REPORT ON COMPLIANCE AND OTHER MATTERS
         BASED ON AN AUDIT OF THE FUND ACCOUNTABILITY STATEMENT
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS


We have audited the Fund Accountability Statement of Creative Associates International, Inc.
(CAii) representing revenues received and costs incurred under Task Order No. 306-M-00-06-
00508-00, and Cooperative Agreement No. 306-A-00- 10-00513-00 with the United States
Agency for International Development for the period January 27, 2006 to August 31, 2011, and
March 7, 2010 to March 6, 2012, respectively, and have issued our report thereon dated
December 17, 2013. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America and the standards for financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.

As part of obtaining reasonable assurance about whether CAll's Fund Accountability Statement
is free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of Fund Accountability Statement amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion . The results of our tests disclosed
instances of noncompliance or other matters that are required to be reported under Government
Auditing Standards and which are described in the accompanying Findings and Responses as
Findings 2013-1, 2013-2, and 2013-3 .

CAll's response to the finding identified in our audit is described in the accompanying Findings
and Responses, and included verbatim in Appendix A. We did not audit CAll's response and ,
accordingly, we express no opinion on it.

This report is intended for the information of Creative Associates International, Inc., United
States Agency for International Development, and the Special Inspector General for Afghan istan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.

            u
c/~~ ~{,M ~v( ( (~~                   Pc
Bethesda, Maryland
December 17, 2013



                                                   19
                         CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                  Financial Audit of Costs Incurred under
                                  Task Order No. 306-M-00-06-00508-00
                      For the Period January 27, 2006 through August 31, 2011; and
                            Cooperative Agreement No. 306-A-00-10-00513-00
                         For the Period March 7, 2010 through March 6, 2012

                                        Findings and Responses

2013-1: Budget line items were exceeded without approval from funding agency

Type of Award                                 Number                 Program

Task Order                           306-M-00-06-00508-00                BESST

Condition:
Direct Labor totaling $140,129 was charged to the Task Order in excess of the approved budget for that
line item without any written approval from USAID. This caused $156,267 to be charged to the Task
Order as associated indirect costs. In addition, G&A costs totaling $37,806 were also charged in excess
of the approved budget for that line item without any written approval from USAID.

Building Education Support Systems for Teachers (BESST) Program
                                                Budget        Actual                  Questioned
                   Condition                   Amount         Amount                    Cost

   Total Labor                                     $ 13,595,584       $ 13,735,713       $ 140,129

    Total questioned costs related to total
      Labor                                                                                140,129

   Associated Indirect Costs

    Fringe                                                                                  52,745
    Overhead                                                                                58,181
    G&A                                                                                     45,341
         Total Associated Indirect Costs                                                   156,267

     Total labor questioned + associated
   indirect costs                                                                          296,396

   G&A Aguirre/EDC (G&A on other than labor)            53,194         91,000               37,806

   Total questioned costs due to exceeding
   approved budgeted amounts                                                             $ 334,202




                                                   20
                        CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                 Financial Audit of Costs Incurred under
                                 Task Order No. 306-M-00-06-00508-00
                     For the Period January 27, 2006 through August 31, 2011; and
                           Cooperative Agreement No. 306-A-00-10-00513-00
                        For the Period March 7, 2010 through March 6, 2012

                                      Findings and Responses

                                             (Continued)

2013-1: Budget line items were exceeded without approval from funding agency (Continued)

Cause:
CAII’s management stated that they were not aware of any provision in the contract that requires such
approval since total costs claimed did not exceed the total contract amount.

Criteria:
FAR 31.201.2 Determining Allowability, states that
“(a) A cost is allowable only when the cost complies with all of the following requirements:
        (1) Reasonableness.
        (2) Allocability.
        (3) Standards promulgated by the CAS Board, if applicable, otherwise, generally accepted
            accounting principles and practices appropriate to the circumstances.
        (4) Terms of the contract.
        (5) Any limitations set forth in this subpart.”

Modification #21 to the BESST award realigned the budget and revised the dollar amounts for the Total
Labor and the G&A Aguirre/EDC (G&A on other than labor) categories to $13,595,584 and $53,194,
respectively.

Effect:
Claiming costs in excess of the approved budget without appropriate approval is in violation of the
Federal Acquisition Regulation. This practice allows the contractor to recapture costs that were not
budgeted as part of the specific line items.




                                                  21
                          CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                  Financial Audit of Costs Incurred under
                                  Task Order No. 306-M-00-06-00508-00
                      For the Period January 27, 2006 through August 31, 2011; and
                            Cooperative Agreement No. 306-A-00-10-00513-00
                         For the Period March 7, 2010 through March 6, 2012

                                         Findings and Responses

                                                (Continued)


2013-1: Budget line items were exceeded without approval from funding agency (Continued)



                                                    Fund Accountability      Questioned
                        Cost Category                   Statement              Cost
               Direct Labor                               $ 13,735,713          $ 140,129
               G&A, Fringe & Overhead on
               Off-Schedule Labor                             3,505,530             156,267
               Other Direct Costs                            12,790,241                 -
               G&A CAII                                      13,187,274                 -
               G&A Aguirre/EDC                                   91,000              37,806
               Subcontract                                   50,577,025                 -
               Grants                                         3,471,340                 -
               Fixed Fee                                      2,409,963                 -
                 Total Costs                               $ 99,768,086           $ 334,202

Recommendation:
  (1) We recommend that CAII either obtain approval for exceeding the award’s budget line items or
      return $334,202 to USAID for the excess charged to the BESST program costs.

  (2) We recommend CAII institute a procedure that seeks proper approval for funds needed in
      excess of an award’s budget line items or prevents CAII from charging the federal government
      for expenses in excess of the approved budget line item.

Management Response:
Per Task Order Section A.8, we quote “The contractor will not be paid any sum in excess of the ceiling
price.” The ceiling price is set at the aggregate value of the contract which at the end of the
performance of this task order, we had not exceeded.

The questioned labor costs ($140,129) are 1.03% of the Total Labor budget line item, a small variance
on a $100,000,000 project.

While we acknowledge that during the last budget realignment as approved in Modification #21, dated
July 13, 2011, we indivertibly reduced the amount of the anticipated cost of G&A on Aguirre and EDC
other costs, we still maintain that the ceiling price of this task order was not exceeded and therefore all
reasonable costs should be allowable and paid.




                                                     22
                          CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                  Financial Audit of Costs Incurred under
                                  Task Order No. 306-M-00-06-00508-00
                      For the Period January 27, 2006 through August 31, 2011; and
                            Cooperative Agreement No. 306-A-00-10-00513-00
                         For the Period March 7, 2010 through March 6, 2012

                                         Findings and Responses

                                                (Continued)

Rebuttal to Management Response:
Our interpretation of this regulation is that the budget line items amounts in conjunction with the overall
budget amount are the ceiling price to which the contractor has to abide by. There would be no sense
in having them prepare and update a budget by line item throughout the life of the project if these line
items limits would not be enforced.




                                                    23
                            CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                    Financial Audit of Costs Incurred under
                                    Task Order No. 306-M-00-06-00508-00
                        For the Period January 27, 2006 through August 31, 2011; and
                              Cooperative Agreement No. 306-A-00-10-00513-00
                           For the Period March 7, 2010 through March 6, 2012

                                            Findings and Responses

                                                     (Continued)

2013-2: Missing Source Documentation to Support Expense

Type of Award                                    Number                  Program

Task Order                                306-M-00-06-00508-00               BESST

Condition:
Hours reported by one of CAII’s consultants for May 2010 were not supported by timesheets. The
amount of labor charged for this consultant was $1,394. This caused G&A costs of $239 to be charged
to the Task Order as associated indirect costs.

                                                                     Number          Questioned
                              Condition                              of Errors         Cost

Direct Labor:
Consultants
 No timesheets provided                                                 1                 $ 1,394
    Total questioned costs related to direct labor                      1                   1,394

Associated Indirect Costs
  G&A                                                                                        239
   Total Indirect Costs related to questioned costs                                          239

Total questioned costs due to missing supporting
documentation                                                                             $ 1,633


Cause:
CAII’s management stated that their inability to provide the timesheets supporting the $1,633 claimed
was due to filing errors that occurred in the document relocation and storage process. Management
also stated supporting documents could have been misplaced within all the boxes used to store all the
files related to the program.

Criteria:
48 CFR 31.201-2, Determining Allowability, states, in part:

        “(d) A contractor is responsible for accounting for costs appropriately and for
        maintaining records, including supporting documentation, adequate to demonstrate that
        costs claimed have been incurred, are allocable to the contract, and comply with
        applicable cost principles in this subpart and agency supplements…”




                                                         24
                         CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                 Financial Audit of Costs Incurred under
                                 Task Order No. 306-M-00-06-00508-00
                     For the Period January 27, 2006 through August 31, 2011; and
                           Cooperative Agreement No. 306-A-00-10-00513-00
                        For the Period March 7, 2010 through March 6, 2012

                                       Findings and Responses

                                              (Continued)

2013-2: Missing Source Documentation to Support Expense (Continued)

Additionally, 48 CFR 52.215-2, Audit and Records – Negotiation, states, in part:

       “…(b) Examination of costs. If this is a cost-reimbursement, incentive, time-and-
       materials, labor-hour, or price redeterminable contract, or any combination of these, the
       Contractor shall maintain…all records and other evidence sufficient to reflect properly all
       costs claimed to have been incurred or anticipated to be incurred directly or indirectly in
       performance of this contract…”

Effect:
Without adequate supporting documentation it is not possible to clearly determine whether the Federal
funds were used in accordance with Federal regulations and the terms of the contract and therefore
determine their allowability. Requesting reimbursement for labor dollars without the proper supporting
documentation is in clear violation of Federal regulations. Total questioned direct labor (consultants),
and related indirect costs are $1,633, consisting of $1,394 in direct labor, plus the associated G&A of
$239.



                                                  Fund Accountability      Questioned
                        Cost Category                 Statement              Cost
               Direct Labor                             $ 13,735,713             $ 1,394
               G&A, Fringe & Overhead on
               Off-Schedule Labor                                                      239
               Other Direct Costs                           12,790,240                 -
               G&A CAII                                                                -
               G&A Aguirre/EDC                                                         -
               Subcontract                                 50,577,025                  -
               Grants                                       3,471,340                  -
               Fixed Fee                                    2,409,963                  -
                 Total Costs                             $ 99,768,086              $ 1,633

Recommendation:
   (1) We recommend that Creative Associates International, Inc either provide USAID adequate
       documentation for further review or return $1,633 to USAID for unsupported program costs.




                                                   25
                        CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                 Financial Audit of Costs Incurred under
                                 Task Order No. 306-M-00-06-00508-00
                     For the Period January 27, 2006 through August 31, 2011; and
                           Cooperative Agreement No. 306-A-00-10-00513-00
                        For the Period March 7, 2010 through March 6, 2012

                                      Findings and Responses

                                             (Continued)

Management Response:

We acknowledge the auditors’ findings and after considerable review of our records, we have
concluded that the timesheets are indeed missing and Creative will pay back USAID the full questioned
amount of $1,633.




                                                 26
                          CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                   Financial Audit of Costs Incurred under
                                   Task Order No. 306-M-00-06-00508-00
                       For the Period January 27, 2006 through August 31, 2011; and
                             Cooperative Agreement No. 306-A-00-10-00513-00
                          For the Period March 7, 2010 through March 6, 2012

                                           Findings and Responses

                                                 (Continued)

2013-3: Ineligible Expenses charged to the Agreement

Type of Award                                  Number                  Program

Cooperative Agreement                  306-A-00-10-00513-00                CBSG

Condition:
Transportation costs totaling $3,202 were charged to the Agreement without the proper approval from
USAID. These were paid to the program’s employees as transportation allowances while in
Afghanistan. Transportation allowances were not included in the approved award budget. At the same
time, food costs totaling $4,120 were charged to the Agreement without the proper approval from
USAID. These costs were for regular grocery shopping by employees while in Afghanistan, and not
included in the approved award budget. This caused G&A costs of $1,322 to be charged as associated
indirect costs.

Community Based Stabilization Grants (CBSG) Program
                                                                      Number          Questioned
                             Observation                              of Errors         Cost
Other Direct Costs:

Transportation costs not included in the approved budgets                    83            $ 3,202
Lunch and food costs not included in the approved budgets                     5              4,120
   Total questioned costs related to other direct costs                      88              7,322

Associated Indirect Costs

 G&A                                                                                           1,322
  Total Indirect Costs related to questioned costs                                             1,322

Total questioned costs due to ineligibility                                                $ 8,644


Cause:
CAII’s management stated that these costs were charged to the program because it is a requirement of
the Afghan Labor Law. In addition, they stated that transportation and meal costs are allowable and
reasonable costs for the performance of this CBSG project though not included in the approved budget.

Criteria:
FAR 31.201.2 Determining Allowability, states that
“(a) A cost is allowable only when the cost complies with all of the following requirements:
        (1) Reasonableness.
        (2) Allocability.



                                                     27
                        CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                 Financial Audit of Costs Incurred under
                                 Task Order No. 306-M-00-06-00508-00
                     For the Period January 27, 2006 through August 31, 2011; and
                           Cooperative Agreement No. 306-A-00-10-00513-00
                        For the Period March 7, 2010 through March 6, 2012

                                         Findings and Responses

                                               (Continued)

2013-3: Ineligible Expenses charged to the Agreement (Continued)

       (3) Standards promulgated by the CAS Board, if applicable, otherwise, generally accepted
           accounting principles and practices appropriate to the circumstances.
       (4) Terms of the contract.
       (5) Any limitations set forth in this subpart.”

Effect:
Failure to follow the cooperative agreement terms undermines the controls established in the
agreement. Award budget categories serve as the control and are intended to limit costs to the
government.



                                                  Fund Accountability     Questioned
                         Cost Category                Statement             Cost
              Direct Labor                               $ 2,310,843                -
              Fringe                                                                -
              Overhead                                                              -
              Travel & Per Diem                                 228,094             -
              Allowances                                        448,848             -
              Subcontract                                     6,658,483             -
              Activities                                     18,780,962             -
              Procurement                                       671,830             -
              Other Direct Costs                              1,982,769          $7,322
              G&A                                                                 1,322
                Total Costs                             $ 35,229,217            $ 8,644

Recommendation:
  (1) We recommend that Creative Associates International, Inc. either return $8,644 to USAID for
      ineligible program costs or provide USAID with supporting documentation for further review and
      determination of cost allowability.

Management Response:
Creative maintains that the transportation and meal costs are allowable and reasonable costs for the
performance of this CBSG project though not included in the approved budget. These transport
allowances and meals were provided to employees for security reasons and at a cost of maintaining a
healthy employee relationship and to retain valuable employees within the existing market rates. The



                                                   28
                        CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                 Financial Audit of Costs Incurred under
                                 Task Order No. 306-M-00-06-00508-00
                     For the Period January 27, 2006 through August 31, 2011; and
                           Cooperative Agreement No. 306-A-00-10-00513-00
                        For the Period March 7, 2010 through March 6, 2012

                                       Findings and Responses

                                             (Continued)

total amount charged to the project is insignificant as compared to the total cost of $35,229,217
incurred on the project.

Rebuttal to Management Response:
One of the attributes during our testing is to verify if expenses charged to the award were part of the
approved budget. We questioned these transactions as they were not included in the approved budget.




                                                  29
                                                                                        APPENDIX A
                         CREATIVE ASSOCIATES INTERNATIONAL, INC.

                                 Financial Audit of Costs Incurred under
                                 Task Order No. 306-M-00-06-00508-00
                     For the Period January 27, 2006 through August 31, 2011; and
                           Cooperative Agreement No. 306-A-00-10-00513-00
                        For the Period March 7, 2010 through March 6, 2012

                                      CAII Response to Findings

Included on the following page is CAII’s response received pertaining to the findings identified in this
report.




                                                  30
                               Financial Audit of the Costs incurred under
                                 Task Order No. 306-M-00-06-00505-00
                     For the Period January 27, 2006 through August 31, 2011; and
                           Cooperative Agreement No. 306-A-00-10-00513-00
                          For the Period March 7, 2010 through March 6, 2012

                                        Findings and Responses


2013-1: Budget line items were exceeded without approval from the funding agency

Management Response:

Per Task Order Section A.8, we quote “The contractor will not be paid any sum in excess of the ceiling
price.” The ceiling price is set at the aggregate value of the contract which at the end of the
performance of this task order, we had not exceeded.

The questioned labor costs ($140,129) are 1.03% of the Total Labor budget line item, a small variance
on a $100,000,000 project.

While we acknowledge that during the last budget realignment as approved in Modification #21, dated
July 13, 2011, we indivertibly reduced the amount of the anticipated cost of G&A on Aguirre and EDC
other costs, we still maintain that the ceiling price of this task order was not exceeded and therefore all
reasonable costs should be allowable and paid.

2013-2: Missing Source Documentation to Support Expense

Management Response:

We acknowledge the auditors’ findings and after considerable review of our records, we have
concluded that the timesheets are indeed missing and Creative will pay back USAID the full questioned
amount of $1,633.

2013-3: Ineligible Expense charged to the Agreement

Management Response:

Creative maintains that the transportation and meal costs are allowable and reasonable costs for the
performance of this CBSG project though not included in the approved budget. These transport
allowances and meals were provided to employees for security reasons and at a cost of maintaining a
healthy employee relationship and to retain valuable employees within the existing market rates. The
total amount charged to the project is insignificant as compared to the total cost of $35,229,217
incurred on the project.




                                                    31
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
